U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Xavier Becerra, Secretary of Health and Human Services, et al., v.
Charles Gresham, et al., No. 20-37
- and State of Arkansas v. Charles Gresham, et al., No. 20-38

Dear Mr. Harris:
On April 5, 2021, this Court issued an order in these cases providing that, “[u]pon
consideration of the motion of [the federal petitioners] to vacate the judgments of the court of
appeals and remand, to remove the cases from the March 2021 argument calendar, and to hold
further briefing in abeyance, these cases are held in abeyance pending further order of the Court.”
I write to provide an update to the Court regarding the status of administrative proceedings
following the determinations by the Department of Health and Human Services (HHS) to withdraw
its approvals of work-related requirements in Arkansas’s and New Hampshire’s demonstration
projects that are at issue in these cases.
As the government has explained in its briefing, on March 17, 2021, HHS notified
Arkansas and New Hampshire that, following a review of the work-related requirements in each
State’s demonstration project, HHS was withdrawing its approval of those requirements based on
the agency’s determination that testing the work-related requirements during and in the aftermath
of the COVID-19 pandemic is unlikely to promote the statutory objectives of Medicaid. Gov’t
Reply Br. 5; see id. at 5-9; Letter from Elizabeth Richter, Acting Administrator, Centers for
Medicare & Medicaid Servs. (CMS), HHS, to Dawn Stehle, Deputy Director for Health and
Medicaid, Arkansas Department of Human Servs. 1-16 (Mar. 17, 2021) (Arkansas Withdrawal
Decision), https://go.usa.gov/xss2r; Letter from Elizabeth Richter, Acting Administrator, CMS,
HHS, to Lori Shibinette, Commissioner, New Hampshire Dep’t of Health & Human Servs. 1-14
(Mar. 17, 2021) (New Hampshire Withdrawal Decision), https://go.usa.gov/xss2Y. HHS’s
decisions withdrawing approval of the work-related requirements in Arkansas’s and New
Hampshire’s projects did not affect other aspects of the States’ projects, including waivers of
retroactive-coverage requirements that the private respondents have also challenged in this
litigation; HHS explained that it is reviewing those other aspects of the projects separately. See
Arkansas Withdrawal Decision 16; New Hampshire Withdrawal Decision 14.

As we have additionally explained, each State was entitled to seek administrative review
of HHS’s decisions withdrawing approval of the State’s work-related requirements. Gov’t Reply
Br. 10; see Arkansas Withdrawal Decision 16-17; New Hampshire Withdrawal Decision 15.
Specifically, each State was entitled to request a hearing, before the withdrawal decision’s
effective date, by appealing the decision to HHS’s Departmental Appeals Board, pursuant to HHS
regulations, 45 C.F.R. Pt. 16. Arkansas Withdrawal Decision 16; New Hampshire Withdrawal
Decision 15. Each withdrawal decision explained that a State could request a hearing by filing a
notice of appeal with the Board within 30 days of receiving the withdrawal decision and that, if a
State did not timely file such a notice, the withdrawal decision “shall be the final decision of
[HHS].” Ibid.
HHS has informed this Office that New Hampshire did not timely file a notice of appeal
of HHS’s decision withdrawing approval of the work-related requirements in New Hampshire’s
demonstration project. The New Hampshire withdrawal decision is therefore now final, and its
work-related requirements are no longer an approved component of its demonstration project.
HHS has additionally informed this Office that Arkansas did timely file a notice of appeal
of HHS’s decision withdrawing approval of the work-related requirements in Arkansas’s
demonstration project. On May 24, 2021, Arkansas filed its opening brief in its administrative
appeal before the Board. Further briefing in the administrative appeal remains ongoing pursuant
to the regulations governing procedures set forth in HHS’s regulations. See 45 C.F.R. 16.8(b) and
(c). Following the completion of briefing and completion of the appeal file, the Board will
determine whether to hold an informal conference with the parties, a hearing, or both. 45 C.F.R.
16.10-16.11. The regulations do not establish a specific timeline by which the Board must render
a disposition of the appeal. The Board has established “goals” of resolving appeals in which it
does not hold a hearing within six months from the filing of the appellant’s opening submission,
and appeals where it does hold a hearing within nine months from the filing of that submission.
45 C.F.R. 16.23. The regulations further state, however, that “[t]he paramount concern of the
Board is to take the time needed to review a record fairly and adequately in order to produce a
sound decision.” Ibid. The regulations also note that “many factors are beyond the Board’s direct
control, such as unforeseen delays due to the parties’ negotiations or requests for extensions, how
many cases are filed, and Board resources.” Ibid. The government accordingly does not anticipate
that Arkansas’s appeal will be resolved during the Court’s current Term, and it may not be resolved
before HHS’s approval of Arkansas’s demonstration project expires by its terms on December 31,
2021, see Arkansas Withdrawal Decision 13.
I would appreciate it if you would circulate this letter to the Members of the Court.
Sincerely,
/s/
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0037
BECERRA, XAVIER, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.
CHARLES GRESHAM, ET AL.

MICHELLE BANKER
DIRECTOR OF REPRODUCTIVE RIGHTS AND
HEALTH LITIGATION
11 DUPONT CIRCLE, NW
SUITE 800
WASHINGTON, DC 20036
202-588-5180
MBANKER@NWLC.ORG
TIFFANY H. BATES
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209
703-243-9423
TIFFANY@CONSOVOYMCCARTHY.COM
NICHOLAS J BRONNI
SOLICITOR GENERAL OF ARKANSAS
ARKANSAS ATTORNEY GENERAL'S OFFICE
323 CENTER STREET
SUITE 200
LITTLE ROCK, AR 72201
501-682-2007
NICHOLAS.BRONNI@ARKANSASAG.GOV

ERIN GLENN BUSBY
THE UNIVERSITY OF TEXAS AT AUSTIN
SCHOOL OF LAW
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705
7139660409
EBUSBY@LAW.UTEXAS.EDU
JAMES A. CAMPBELL
NEBRASKA ATTORNEY GENERAL'S OFFICE
2115 STATE CAPITOL
LINCOLN, NE 68509
402-471-2682
JIM.COMPBELL@NE3BRASKA.GOV
KENNETH Y. CHOE
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5675
KEN.CHOE@HOGANLOVELLS.COM
PHILLIP ESCORIAZA
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20TH STREET, NW
WASHINGTON, DC 20036
202-466-8960
PESCORIAZA@FELDESMANTUCKER.COM
202-293-8103(Fax)
LISA ESKOW
SCHOOL OF LAW THE UNIVERSITY OF
TEXAS AT AUSTIN
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705-3299
512-232-5741
LESKOW@LAW.UTEXAS.EDU

THOMAS M. FISHER
SOLICITOR GENERAL OF INDIANA
IGC SOUTH, FIFHT FLOOR
302 W. WASHINGTON STREET
INDIANAPOLIS, IN 46204
317-232-6255
TOM.FISHER@ATG.IN GOV
DAVID C. FREDERICK
KELLOGG, HANSEN, TODD, FIDGEL &
FREDERICK, P.L.L.C
1615 M STREET, N.W.
SUITE 400
WASHINGTON, DC 20036
202-326-7900
DFREDERICK@KELLOGGHANSEN.COM
IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MAAME GYAMFI
AARP FOUNDATION
601 E STREET, NW
WASHINGTON, DC 20049
202-434-6100
MGYAMFI@AARP.ORG
JEFFREY M. HARRIS
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD.
SUITE 700
ARLINGTON , VA 22209
202-243-9423
JFF@CONSOVOYMCCARTH.COM

LAURA E.B. LOMBARDI
SENIOR ASSISANT ATTORNEY GENERAL
NEDW HAMPOSHIRE DEPARTMENT OF
JUSTICE
33 CAPITOL STREET
CONCORD, NH 03301
606-271-3650
LAURA.LOMBARDI@DOJ.NH.GOV
SARAH MARESH
NEBRASKA APPLESEED
PO BOX 83613
LINCOLN, NE 68501-3613
402-438-8853
SMARESH@NEAPPLESEED.ORG
402-438-0263(Fax)
JUDITH R. NEMSICK
HOLLAND & KNIGHT LL P
31 WEST 52ND STREET,
12TH FLOOR
NEW YORK, NY 10019
212-513-3200
JUDITH.NEMSICK@HKLAW.COM
JANE PERKINS
NATIONAL HEALTH LAW PROGRAM
200 N. GREESBORO STREET
SUITE D-13
CARRBORO, NC 27510
919-968-6308
PERKINS@HEALTHLAW.ORG

BRENDAN TYLER
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20TH STREET, NW
SUITE 400
WASHINGTON, DC 20036
202-466-8960
BTYLER@FELDESMANTUCKER.COM
202-293-8103(Fax)
JACLYN NICCOLE WARR
STINSON LLP
7700 FORSYTH BLVD.
SUITE 1100
CLAYTON , MO 63105
301-524-2222
NICCI.WARR@STINSON.COM
EDWARD T. WATERS
FELDESMAN TUCKER LEIF ER FIDELL LL P
1129 20TH STREET, N.W.
4TH FLOOR
WASHINGTON, DC 20036
202-466-8960
EWATERS@FTLF.COM
DANIEL E. WILL
SOLICITOR GENERAL OF NEW HAMPSHIRE
NEW HAMPSHIRE DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
33 CAPITOL STREET
CONCORD, NH 03301
603-271-3658
DANIEL.WILL@DOJ.NJ.GOV

20-0038
ARKANSAS
CHARLES GRESHAM, ET AL.

NICHOLAS J BRONNI
SOLICITOR GENERAL OF ARKANSAS
ARKANSAS ATTORNEY GENERAL'S OFFICE
323 CENTER STREET
SUITE 200
LITTLE ROCK, AR 72201
501-682-2007
NICHOLAS.BRONNI@ARKANSASAG.GOV
JAMES A. CAMPBELL
NEBRASKA ATTORNEY GENERAL'S OFFICE
2115 STATE CAPITOL
LINCOLN, NE 68509
402-471-2682
JIM.COMPBELL@NE3BRASKA.GOV
THOMAS M. FISHER
SOLICITOR GENERAL OF INDIANA
IGC SOUTH, FIFHT FLOOR
302 W. WASHINGTON STREET
INDIANAPOLIS, IN 46204
317-232-6255
TOM.FISHER@ATG.IN GOV
DAVID C. FREDERICK
KELLOGG, HANSEN, TODD, FIDGEL &
FREDERICK, P.L.L.C
1615 M STREET, N.W.
SUITE 400
WASHINGTON, DC 20036
202-326-7900
DFREDERICK@KELLOGGHANSEN.COM

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MAAME GYAMFI
AARP FOUNDATION
601 E STREET, NW
WASHINGTON, DC 20049
202-434-6100
MGYAMFI@AARP.ORG
JEFFREY M HARRIS
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209
703-243-9423
JEFF@CONSOVOYMCCARTHY.COM
SARAH MARESH
NEBRASKA APPLESEED
PO BOX 83613
LINCOLN, NE 68501-3613
402-438-8853
SMARESH@NEAPPLESEED.ORG
402-438-0263(Fax)
BRENDAN TYLER
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20TH STREET, NW
SUITE 400
WASHINGTON, DC 20036
202-466-8960
BTYLER@FELDESMANTUCKER.COM
202-293-8103(Fax)

